              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Safeguards Over Sensitive Technology




DOE/IG-0635                                 January 2004
SAFEGUARDS OVER SENSITIVE TECHNOLOGY


TABLE OF
CONTENTS



               Program Results and Cost


               Details of Finding ....................................................................... 1

               Recommendations and Comments ........................................... 6


               Appendices

               Prior Reports .............................................................................. 9

               Objective, Scope, and Methodology ........................................ 11

               Management Comments .......................................................... 12
PROGRAM RESULTS AND COSTS

Background     Aspects of sensitive technology protection, along with related impacts on
               national security, have been addressed in various formats by the
               Department of Energy and several other Federal agencies. For example:

                  •   The Departments of Energy, Defense, and Commerce each
                      maintain lists of technologies they deem sensitive.

                  •   The Department of Energy (Department) has designated certain
                      countries as sensitive for reasons of national security,
                      nonproliferation, antiterrorism, or economic security. As applied
                      to other nations, the term "sensitive" requires that Department and
                      Laboratory personnel exercise caution when interacting with the
                      citizens of the designated countries.

                  •   The Department has also issued policy and requirements (DOE
                      Order and Notice 142.1) on unclassified foreign visits and
                      assignments which state that sensitive technology is not to be
                      accessed by foreign nationals, including permanent resident aliens,
                      without proper authorization.

                  •   The Departments of State, Commerce, and Treasury regularly
                      publish and update lists of individuals and companies that have
                      been prohibited from conducting business with the Federal
                      government. In some cases, the prohibitions were put into place
                      because the individuals or countries were deemed to represent a
                      threat to the United States.

                  •   In August 2002, the Department promulgated a counterintelligence
                      procedure that called for local counterintelligence officers to
                      partner with local technology partnership offices to conduct
                      reviews of Cooperative Research and Development Agreements
                      (CRADA) to determine if they involve sensitive or classified
                      information. This was the result of a July 1998 study, "Mapping
                      the Future of the Department of Energy Counter- intelligence
                      Program," which found that there was very little scrutiny in this
                      area and that the Department was vulnerable with respect to the
                      activities under these agreements.




Page 1                                                                Details of Finding
Controls   Despite the aforementioned initiatives, our review of about 200
           CRADA and Work for Others (WFO) agreements at Sandia, Los
           Alamos, and Oak Ridge National Laboratories disclosed that the
           laboratories did not consistently control access to sensitive
           technologies. For example:

              •   Los Alamos assigned foreign nationals to two projects, which
                  we determined could involve sensitive technologies, without
                  any indication that proper authorization had been granted. In
                  one case, Los Alamos assigned a Chinese national to a CRADA
                  involving biological sensors. The Chinese national was later
                  replaced with a Russian national. Both China and Russia are on
                  the Department's list of sensitive countries. In the other
                  instance, Los Alamos assigned a Chinese national to a project
                  involving nanotechnology.

                  Management, in response to a draft of the report, stated that the
                  technologies were screened against State and Commerce
                  Department regulations, and were not sensitive. However, there
                  was no evidence that the Laboratory considered other sensitive
                  technology lists referenced in the Department’s export control
                  guidance. Both technologies were on Department of Defense
                  sensitive subject lists, and were also identified in the Wassenaar
                  Arrangement, an international agreement to prevent the
                  proliferation of sensitive technology, to which the United States
                  is a signatory. In addition, the biological sensor CRADA file
                  indicated that the research being performed directly contributed
                  to the Laboratory's "strategic objectives in threat reduction and
                  strategic research," which includes preventing the proliferation
                  of chemical and biological weapons by providing early warning
                  tools to intelligence services. As such, the development of
                  biological sensors could be considered a sensitive technology
                  requiring special attention.

                  Management further stated that two of the three individuals
                  assigned to the projects were permanent resident aliens, the third
                  was naturalized prior to being assigned, and all were vetted
                  according to existing requirements. Nevertheless, project files
                  did not include documentation to support management's
                  assertion. For example, the project file relating to the
                  nanotechnology CRADA identified the assignee as a foreign
                  national. However, while the Laboratory stated he was a U.S.
                  citizen, no proof of U.S. citizenship was provided.




Page 2                                                           Details of Finding
         •   Similarly, Oak Ridge assigned foreign nationals to five
             agreements, which we determined could involve sensitive
             technologies, without evidence of proper authorization. In one
             case, an Indian national (India is also on the Department's
             sensitive country list) was assigned to research involving
             advanced manufacturing processes. Oak Ridge did not consider
             the research to be sensitive because it was not specifically
             referenced in the Export Administration Regulations. We noted,
             however, that while neither the Department of Commerce nor
             the Department's Sensitive Subject List is all-inclusive, each list
             makes reference to lists maintained by other agencies. We
             found that advanced manufacturing processes were included on
             the Department of Defense Militarily Critical Technologies List.

         •   In six cases, Sandia made incorrect determinations regarding
             foreign involvement. For example, Sandia determined that an
             agreement did not involve foreign or foreign-funded partners,
             yet the agreement file indicated that the partner was a university
             that would be providing the results of the CRADA to foreign
             officials. We found a similar incorrect determination at Los
             Alamos.

         •   At Sandia, security documents for classified agreements were
             not submitted to the Department or were not approved by the
             Department in a timely manner. Our sample contained six
             classified agreements, each of which required Contract Security
             Classification Forms. These forms identify the level of security
             to apply to the work being conducted. Two of the classified
             agreements, including one that was Top Secret, never had the
             classification forms submitted. In the remaining four
             agreements, the Department took an average of 583 days after
             the start of the agreement to approve the classification form.

         •   None of the 198 agreement files at any of the laboratories had
             any indication that the names of CRADA and WFO partners
             were compared against prohibited party lists, even though the
             laboratories were aware that such lists existed and were aware
             that they were prohibited from doing business with certain
             companies, individuals, and countries. Sandia had an automated
             system designed to compare partner names against the
             prohibited parties lists, but it was not used.



Page 3                                                      Details of Finding
                           •   Departmental counterintelligence policy called for reviews of
                               CRADA agreements, but these reviews were not consistently
                               completed. Oak Ridge was performing the required reviews.
                               However, Sandia counterintelligence officials stated that they
                               had not conducted any of the reviews, while Los Alamos
                               relied on technology partnership and classification
                               personnel – not counterintelligence officials – to identify any
                               CRADA-related counterintelligence issues.

Department Procedures   The Department and other agencies have issued a variety of controls
                        (lists, descriptions, and policy statements) that had a bearing on the
                        protection of sensitive technologies. However, the laboratories did
                        not consistently apply the controls as they related to:

                           •   Sensitive technology lists that should be consulted;

                           •   The manner in which authorizations for persons from
                               sensitive countries to work on CRADAs or WFO projects
                               should be obtained and documented;

                           •   Determinations regarding foreign involvement;

                           •   Approval of security classification forms prior to entering
                               into agreements; and,

                           •   Counterintelligence reviews of CRADAs.

                        In addition, guidance, as it related to assignments of foreign
                        nationals, was unclear. Department Notice 142.1 prohibits foreign
                        nationals, including permanent resident aliens, from working on
                        sensitive technology without prior authorization. At the same time,
                        the Department's export control guidance treats permanent resident
                        aliens as U.S. citizens. Laboratory officials indicated that there was
                        confusion between these two documents. Notice 142.1 is now being
                        incorporated into Draft Order 142.X Unclassified Foreign Visits and
                        Assignments Program, which will define foreign nationals as
                        individuals born outside the United States that have not been
                        naturalized. The draft order further states that sensitive technologies
                        require special management oversight before they can be released to
                        foreign nationals.




Page 4                                                                     Details of Finding
         The Office of Inspector General previously reported on the lack of clear
         guidance regarding foreign national visits and assignments. Our report,
         Inspection of the Department of Energy's Export License Process for
         Foreign National Visits and Assignments (DOE/IG-0465, March 2000),
         identified a lack of clarity in the Department's guidance. In December
         2002, we reported that two national laboratories had not adequately
         controlled unclassified visits and assignments by foreign nationals (The
         Department's Unclassified Foreign Visits and Assignments Program,
         DOE/IG-0579). In response to the latter report, management agreed to
         update and clarify the Department’s foreign visit and assignment
         policy. As of December 2003, the policy had not been finalized.

         Department officials also expressed the view that, in some cases, the
         laboratories had resisted efforts to emphasize the importance of
         safeguarding sensitive technology. As an example, a commission
         chartered by the Secretary of Energy found, in June 2002, that the
         relationship between the Department's scientists and counterintelligence
         communities was "broken and in need of repair." The commission
         recommended strengthening this relationship. Despite the
         recommendations from both Congress and the Department,
         Headquarters officials stated that the laboratories continued to resist
         these efforts. Further, while performance measures established for the
         laboratories called for promoting the use of partnership agreements,
         such as CRADAs, they did not address the safeguarding of sensitive
         technology.

         In addition, we found that the training provided to Laboratory personnel
         did not adequately address sensitive technology and economic
         espionage. We interviewed 30 laboratory principal investigators and
         found that 25 had received some type of export control-related training.
         However, the course material did not fully discuss the existence of
         prohibited parties lists, the seriousness of the economic espionage
         threat, or the methods used to acquire U.S. sensitive technologies.

Risks    Without consistent implementation of controls, the Department
         increases the risk that its most sensitive technologies could be obtained
         by or diverted to groups or countries hostile to the U.S. Because such
         technologies have, by definition, the potential to enhance weapons of
         mass destruction, their uncontrolled dissemination represents a potential
         threat to our nation's security.




Page 5                                                       Details of Finding
                  A recent report prepared by the Department of Defense illustrates the
                  importance of strong controls over sensitive technology. The report
                  noted that students from a sensitive country attending U.S. universities
                  obtained technology from a Department laboratory that allowed their
                  country to produce a metal used in sensors and weapons. The report
                  also noted that, in 1991, China published a science and technology
                  collection manual that called on using open sources to acquire
                  technology for China's defense program. Examples of open sources
                  include joint ventures, CRADAs, foreign students, and scientific
                  exchanges.

                  Such concerns are even more serious when controls over technologies
                  that involve classified material are not observed, as was the case in six
                  classified agreements we reviewed. In one of these cases, classification
                  forms were not approved until about a year after the work on the
                  agreement was completed. In the second case the classification form
                  was completed eighteen days before the work was completed. As a
                  result, any assurance the Department might have had that classified
                  material associated with these projects was properly safeguarded was
                  significantly reduced.


RECOMMENDATIONS   1. We recommend that the Deputy Administrator for Defense
                     Programs, and the Director, Office of Science, in consultation with
                     their respective counterintelligence offices and other appropriate
                     staff offices:

                     a) Ensure consistent implementation of procedures to safeguard
                        CRADA and WFO activities involving foreign nationals and
                        sensitive technology; and,

                     b) Ensure consistent implementation of counterintelligence policies
                        related to CRADA activities.

                  2. We recommend that the Director, Office of Security, and the Chief,
                     Defense Nuclear Security, establish a consistent policy regarding
                     the assignment of foreign nationals to CRADAs and WFO
                     agreements.

                  3. We recommend that the NNSA Site Office Managers, and the
                     Office of Science Operations Office Managers:

                     a) Ensure that Security Classification Forms are reviewed and
                        approved before an agreement is signed; and,

Page 6                                             Recommendations and Comments
                  b) Ensure that adequate training is provided to principal
                     investigators and technology partnership personnel regarding
                     the economic espionage threat and the importance of protecting
                     sensitive technology.

             4.   We recommend that the Deputy Administrator for Defense
                  Programs and the Director, Office of Science establish
                  performance measures to ensure that controls over sensitive
                  technology are effectively implemented.


MANAGEMENT   NNSA, commenting on behalf of the Offices of Science and Security
REACTION     and NNSA staff and field elements, generally agreed with the
             recommendations, but disagreed that the Department, as a whole, had
             not adequately controlled access to sensitive technologies.

             NNSA stated that the differences in CRADA handling procedures at the
             various laboratories were not due to differences between the Office of
             Counterintelligence and NNSA’s Office of Defense Nuclear
             Counterintelligence, nor were they due to subsequent promulgation of
             the policy.

             Management also stated that, in no case, were laboratory employees
             inappropriately assigned to the projects cited in the report. The
             laboratory employees assigned to the projects were vetted against all
             existing regulations. Specifically, the Commerce and State Department
             regulations designate Permanent Resident Aliens as “U.S. Persons” –
             equivalent, for these purposes, to citizens. The projects were also
             screened against Commerce and State Department regulations and were
             determined not to be sensitive. Management asserted that when the
             technology, such as those items cited in the report, is under the
             jurisdiction of the Department of Commerce, other sensitive lists do not
             apply.

             NNSA acknowledged that controls over technologies involving
             classified materials must be more stringently applied and, in separate
             comments, the Director, Office of Counterintelligence stated that
             Departmental directives addressing the establishment of CRADAs/
             WFOs by technology offices should include a requirement that the
             technology office must solicit a local counterintelligence and security
             review and input to any CRADA/WFO initiative.




Page 7                                        Recommendations and Comments
AUDITOR COMMENTS   Regarding differences in CRADA handling procedures at each
                   laboratory, the Office of Inspector General agrees that the issue is not
                   one of varying policy between the Office of Intelligence and NNSA’s
                   Office of Defense Nuclear Counterintelligence. Rather, as shown in the
                   report, implementation of the policy differed from site to site.

                   Further, we agree that in several of the examples we cited, the
                   laboratories performed and documented some reviews of foreign
                   involvement, comparisons to lists of sensitive technologies, and other
                   similar procedures. As noted in the report, however, the laboratories
                   did not always take advantage of readily available information that
                   could have made efforts to screen sensitive technologies more robust.
                   For example, although projects were vetted in accordance with State
                   and Commerce Department regulations, additional sensitive technology
                   lists could have been consulted, a precaution suggested in Department
                   of Energy guidance. In particular, the Office of Inspector General
                   noted cases where lists maintained by the Department of Defense
                   included some of the technologies the laboratories did not consider
                   sensitive.

                   Finally, regarding the assignment of Permanent Resident Aliens to the
                   projects cited in the report, the Office of Inspector General understands
                   that there is an apparent conflict between Department Notice 142.1 and
                   Commerce’s Export Control guidance. The Department Notice states
                   that foreign nationals, including Permanent Resident Aliens, are
                   prohibited from working on sensitive technologies without prior
                   authorization. As such, obtaining that authorization – whether required
                   by export control regulations or not – is, in our judgment, prudent.

                   Where appropriate, alterations were made to the report to address issues
                   raised by management in their comments. Management’s comments
                   are included in their entirety as Appendix 3.




Page 8                                              Recommendations and Comments
Appendix 1

                                            PRIOR REPORTS

  Office of Inspector General Reports

     •   The Department's Unclassified Foreign Visits and Assignments Program (DOE/IG-0579,
         December 2002). The report found that the Department had not adequately controlled
         unclassified visits and assignments by foreign nationals at two national laboratories.
         Specifically, one managed by the Office of Science and one by NNSA, had not ensured that all
         foreign nationals had current passports and visas.

     •   Inspection of Selected Aspects of The Department of Energy's Classified Document
         Transmittal Process (DOE/IG-0488, November 2000). The report found that the Department's
         laboratories did not always adhere to the Department's Safeguards and Security polices and
         procedures for the transmittal of classified documents.

     •   Inspection of the Department of Energy's Export License Process for Foreign National Visits
         and Assignments (DOE/IG-0465, March 2000). The report found that the Department’s
         process for determining whether an export license was needed for a foreign visit or assignment
         to a Department site needed improvement. Specifically, clear guidance on the roles,
         responsibilities and requirements for export licenses was not provided and the Department was
         not aware of the precise number of foreign visitors at each of the national laboratories.

     •   Inspection of the Sale of a Paragon Supercomputer by Sandia National Laboratories (DOE/
         IG-0455, December 1999). The report found that Sandia failed to follow export control
         regulations related to selling the Paragon computer. Further, Sandia was not sufficiently
         sensitive to potential national security issues associated with the sale of the supercomputer,
         especially after learning of plans the purchaser had of selling parts of the computer to the
         People's Republic of China.

     •   The Department of Energy's Export Licensing Process For Dual-Use and Munitions
         Commodities (DOE/IG-0445, May 1999). The report found that guidance was not clear
         regarding when a deemed export license would be required for an assignment involving a
         foreign national. Problems were also found with the process for reviewing assignments of
         foreign nationals when export control concerns were involved.

  Other Reports

     •   Department of Energy: Key Factors Underlying Security Problems at DOE Facilities, (GAO/
         T-RCED-99-159, April 1999). The testimony stated that: (1) the Department had ineffective
         controls over foreign visitors to its most sensitive facilities; (2) counterintelligence programs to
         guard against foreign and industrial espionage activities received little priority and attention;
         and (3) there were weaknesses in controls to protect classified and sensitive information.



Page 9                                                                                         Prior Reports
Appendix 1 (continued)

     •    Economic Espionage: Information on Threat from U.S. Allies, (AO/T-NSIAD-96-114,
          February 1996). The testimony stated that some close U.S. allies actively seek to obtain
          classified and technical information from the United States through unauthorized means.
          Intelligence agencies have determined that foreign intelligence activities directed at U.S.
          critical technologies pose a significant threat to national security.

     •    Nuclear Nonproliferation: DOE Needs Better Controls to Identify Contractors Having
          Foreign Interest, (GAO/RCED-91-83, March 1991). The report found that overall neither the
          Department nor its weapons laboratories (Lawrence Livermore, Los Alamos, and Sandia
          National Laboratories) fully complied with Departmental regulations and procedures for
          determining whether contractors are subject to foreign interest and preventing associated risks.
          GAO estimated that about 98 percent of the classified contracts awarded at the weapons
          laboratories from October 1987 to March 1990 that were subject to Foreign Ownership Control
          and Interest procedures did not fully comply with those procedures.




Page 10                                                                                       Prior Reports
Appendix 2

OBJECTIVE     The objective of this audit was to determine whether sensitive
              technologies were being adequately protected.


SCOPE         The audit was performed between January 2003 and July 2003 at
              Headquarters NNSA, the NNSA Service Center in Albuquerque, New
              Mexico; Sandia National Laboratories (Sandia); Los Alamos National
              Laboratory (Los Alamos); and Oak Ridge National Laboratory (Oak
              Ridge). The audit examined FY 2001 and 2002 active CRADA and
              WFO agreements involving sensitive technologies.


METHODOLOGY   To accomplish the audit objective, we:

                 •   Reviewed applicable public laws, department orders, other
                     departmental guidance, related correspondence, and contracts;

                 •   Reviewed prior Office of Inspector General and General
                     Accounting Office reports;

                 •   Reviewed compliance with the Government Performance and
                     Results Act of 1993;

                 •   Reviewed 198 active FY 2001 and 2002 CRADA and WFO
                     agreements at Sandia, Los Alamos, and Oak Ridge;

                 •   Interviewed key Headquarters, Field, and Laboratory personnel;
                     and,

                 •   Reviewed contents of applicable training courses.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the objective of the audit. Accordingly,
              we assessed the significant internal controls and performance measures
              established under The Government Performance and Results Act of
              1993 and found that performance measures did not address the need for
              safeguarding sensitive technology in the technology transfer program.
              Because our review was limited, it would not necessarily have disclosed
              all internal control deficiencies that may have existed at the time of our
              audit. Computer processed data was not relied upon extensively in the
              conduct of this audit. We discussed the findings with the Director,
              Policy and Internal Controls Management on December 10, 2003.

Page 11                                       Objective, Scope, and Methodology
Appendix 3 (continued)




Page 16                  Management Comments
Appendix 3 (continued)




Page 17                  Management Comments
Appendix 3 (continued)




Page 18                  Management Comments
                                                                              IG Report No.: DOE/IG-0635

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
